fo
|

C@QCKLE

: E-Mail Address:
L ega Brie fs contact@ecocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

LINDA RIZZO-RUPON; SUSAN MARSHALL;
and NOEMIO OLIVEIRA,
Petitioners,

v.

INTERNATIONAL ASSOCIATION OF
MACHINISTS AND AEROSPACE WORKERS,
AFL-CIO DISTRICT 141, LOCAL 914, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 4407 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 29th day of March, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska A Chi
: RENEE J. GOSS 9. ( hee ad rite :

My Comm. Exp. September 5, 2023

 

Notary Public Affiant 40772
